Office of Audits
Report No. AUD-10-007


The FDIC’s Proforma Process for Corus
Bank, N.A.




                             September 2010
                                      Executive Summary



                                      The FDIC’s Proforma Process for Corus Bank, N.A.
                                                                                         Report No. AUD-10-007
                                                                                                September 2010

Why We Did the Audit
A key aspect of the FDIC mission is to plan for and efficiently manage the resolution of failing FDIC
insured depository institutions in order to maintain public confidence and stability in our financial system.
The FDIC’s Division of Resolutions and Receiverships (DRR) has primary responsibility for resolving a
failed financial institution and managing the resulting receivership after the FDIC is appointed receiver.
The proforma closing process is designed to produce a reasonably accurate financial statement for the
failed institution and separate financial statements that reflect assets and liabilities passed to the assuming
institution, if any, or retained by the FDIC receivership for later disposition. The FDIC relies on the
governing Purchase and Assumption (P&A) agreement with an assuming institution as the basis for
allocating the assets and liabilities between the assuming institution and receivership, and the proforma
financial statements are key to ensuring this allocation is properly completed.

Corus Bank, N.A. (Corus Bank) was closed by the Comptroller of the Currency on September 11, 2009,
and the FDIC was appointed receiver. To protect the depositors, the FDIC entered into a P&A agreement
with MB Financial Bank, National Association, Chicago, Illinois (hereafter, MB Financial Bank), to
purchase some assets and assume all of the deposits of Corus Bank. As of the date of closing, Corus
Bank had estimated total assets of approximately $7.4 billion and total deposits of approximately
$6.6 billion. The bank also had 25 subsidiaries designed to hold real estate acquired in foreclosure.
These investments were valued at $399.6 million.

The FDIC’s Office of Inspector General (OIG) contracted with Reed & Associates, CPAs, Inc. (Reed) to
conduct an audit of the proforma closing process for Corus Bank.

The objective of this performance audit was to assess the proforma closing process for Corus Bank,
including the reliability of the related proforma financial statements, and compliance with applicable
provisions of the P&A agreement with MB Financial Bank.


Background
Completion of the proforma closing process is a key objective of a bank closing weekend. To prepare the
proforma financial statements, staff involved in the proforma process are responsible for reconciling and
confirming the general ledger accounts of the failed institution and adjusting, if necessary, the account
balances. This process is controlled through the use of proforma jackets – files that contain support for
the closed institution’s final account balances. Subsidiaries of failed banks are separate legal entities that
can remain going concerns and are subject to proforma procedures for all balance sheet accounts. DRR’s
Proforma Training Manual (PTM) is the authoritative reference for the accumulation and presentation of
DRR proforma procedures and serves as guidance for the proforma process.


Audit Results
Overall, Reed concluded that the FDIC’s DRR had implemented a proforma closing process that was
generally adequate to achieve the objective of producing reasonably reliable proforma financial
statements. However, policies and procedures governing the proforma closing process needed updates
and improvement. Specifically, the PTM had not been updated since 2004 although significant
organizational and system changes have occurred. In addition, Reed noted several key areas where the



                         To view the full report, go to www.fdicig.gov/2010reports.asp
   Executive Summary
                                    The FDIC’s Proforma Process for Corus Bank, N.A.
                                                                                   Report No. AUD-10-007
                                                                                          September 2010

PTM did not reflect the actual proforma process that DRR used at Corus Bank, such as the procedures for
confirming and adjusting subsidiary balances, review and approval of confirmed subsidiary balances prior
to the creation of the proforma financial statements, and guidance for closings involving P&A
agreements. Without current and complete policies and procedures, the FDIC lacks assurance that the
proforma closing process is being implemented consistently in accordance with management’s direction
and produces reliable financial information.

Reed determined that the proforma financial statements for Corus Bank, the assuming institution, and the
receivership were generally reliable. Specifically, DRR had established and implemented key controls in
the Corus Bank closing that were sufficient to produce reasonably reliable proforma financial statements
and ensure compliance with the terms of the P&A agreement with MB Financial Bank. However, the
reliability of the proforma financial statements could be improved by implementing more effective
monitoring controls. The Government Accountability Office’s Standards for Internal Control in the
Federal Government state that internal control should be designed to assure that ongoing monitoring
occurs in the course of normal operations. Monitoring controls include regular management and
supervisory activities. Reed identified exceptions regarding adjustments to subsidiary accounts and
supporting information in, and supervisory review of, proforma jackets that had not been identified by
monitoring controls. Existing monitoring controls, while generally adequate, did not provide for
sufficient continuous monitoring and independent review and feedback to DRR management on the
proforma process. Based on the sample of proforma jackets Reed tested, the cumulative effect of the
exceptions noted was not material to the proforma financial statements; however, the presence of
misstatements and the lack of supporting documentation decreases the reliability of proforma financial
information and increases the risk that material misstatements may occur and not be detected.


Recommendations and Management Comments
The report recommends that DRR (1) promptly complete the update of the PTM, including guidance
related to subsidiaries and closings involving P&A agreements, and (2) strengthen monitoring controls
over the process for preparation of proforma financial statements to ensure that information in the
statements is reliable, complete, and current.

Management concurred with our recommendations and is taking responsive action.
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 23, 2010

MEMORANDUM TO:                            Mitchell L. Glassman
                                          Director, Division of Resolutions and Receiverships


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  The FDIC’s Proforma Process for Corus Bank, N.A.
                                          (Report No. AUD-10-007)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. Our evaluation of your response
is incorporated into the body of the report. Your comments on a draft of this report were
responsive to the recommendations. The recommendations will remain open for reporting
purposes until we have determined that agreed-to corrective actions have been completed and
are responsive.

If you have questions concerning the report, please contact me at (703) 562-6350, or Lisa
Conner, Audit Manager, at (972) 761-2297. We appreciate the courtesies extended to the audit
staff.

Attachment

cc: James H. Angel, Jr., OERM
                                   Contents


Part I

   Report by Reed and Associates, CPAs, Inc.                 I-1
   The FDIC’s Proforma Process for Corus Bank, N.A.



Part II

   Management Comments and OIG Evaluation                    II-1

   Management Comments                                       II-2

   Summary of Management’s Comments on the Recommendations   II-3
                Part II

Management Comments and OIG Evaluation
MANAGEMENT COMMENTS AND OIG EVALUATION

    On September 3, 2010, the Director, DRR, provided a written response to the draft of this
    report. Management’s response is presented in its entirety on the next page.
    Management concurred with Reed’s findings and recommendations. In response to the
    recommendations, DRR stated that it planned to rewrite the PTM to reflect current
    policies, procedures, practices, and technology used to support the proforma process.
    Additionally, the updated manual will include a comprehensive multi-step review process
    and a process for reviewing bank and subsidiary inter-related accounts. DRR expects to
    complete these actions by December 31, 2010.

    A summary of management’s response to the recommendations is on page II-3. DRR’s
    planned actions are responsive to Reed’s recommendations. The recommendations are
    resolved but will remain open until we determine that the agreed-to corrective actions
    have been completed and are responsive.




                                              II-1
                                  MANAGEMENT COMMENTS



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                          Division of Resolutions and Receiverships

DATE:             September 3, 2010

TO:               Russell A. Rau
                  Assistant Inspector General for Audits

                  /Signed/
FROM:             Mitchell L. Glassman, Director
                  Division of Resolutions and Receiverships

SUBJECT:          Response to Draft Audit Report Entitled, The FDIC's Proforma
                  Process for Corus Bank, N.A. (Assignment No. 2010-033)

This memorandum is in response to the recommendations in the subject draft audit report dated
August 13, 2010.

OIG Audit Recommendation 1: DRR promptly complete the update of the PTM, including
guidance related to confirming and adjusting subsidiary balances, defining and documenting
Proforma review and approval procedures for subsidiary accounts, and documenting the end-to-
end closing process for P&A agreements.

        DRR Response: DRR agrees with and expects to resolve this recommendation by
        December 31, 2010. The Proforma Training Manual is being rewritten to reflect current
        policies, procedures, practices, and technology used to support the Proforma process. The
        manual will include guidance on completing a mini-Proforma for subsidiary entities and
        will document the nuances associated with each type of resolution transaction impacting
        the depth of the subsidiary mini-Proforma. The Proforma Manual will include end-to-end
        flowcharts for a resolution that involves a Purchase and Assumption Agreement.

        FDIC has purchased software licenses for an application called PPM (Policies and
        Procedures Manual). The Proforma Manual is being rewritten in PPM. PPM provides a
        mechanism for Proforma to make ongoing updates so the current process is always
        reflected in the Proforma Manual.

OIG Audit Recommendation 2: DRR strengthen monitoring controls over the process for
preparation of Proforma financial statements to ensure information in the statements is reliable,
complete, and current. Monitoring controls should ensure compliance with guidance regarding
the confirmation process, including review, approval, and sign-off of each Proforma jacket, and
prohibit the approval of bank-level jackets when the related subsidiary-level jackets have not
been reviewed and approved.

        DRR Response: DRR agrees with and expects to resolve this recommendation by
        December 31, 2010. The updated Proforma Manual will document a comprehensive
        multi-step review process. The manual will also include a process for documenting and
        reviewing related failed ban and subsidiary inter-related accounts.

cc: Bret D. Edwards, Director DOF                        Steve Trout, DRR Internal Review
    Gail Pateluns, Deputy Director, DRR                  Howard Cope, DRR Internal Review
    Ronald F. Bieker, Deputy Director, DRR

                                                  II-2
                 SUMMARY OF MANAGEMENT’S COMMENTS ON THE
                            RECOMMENDATIONS
This table presents management’s response to the recommendations in the report and the
status of the recommendations as of the date of report issuance.


                Corrective Action: Taken or             Expected        Monetary       Resolved:a      Open
                          Planned                      Completion       Benefits       Yes or No        or
Rec. No.                                                  Date                                        Closedb
   1.         DRR agreed with the                     December 31,           $0        Yes            Open
              recommendation and will rewrite         2010
              the PTM by December 31, 2010
              to reflect current policies,
              procedures, practices, and
              technology used to support the
              proforma process. The manual
              will include guidance on
              completing a mini-proforma for
              subsidiary entities and document
              the nuances associated with each
              type of resolution transaction
              impacting the depth of the
              subsidiary proforma. The
              updated PTM will also include
              end-to-end flowcharts for a
              resolution that involves a P&A
              agreement.
      2.      DRR agreed with the                December 31,                $0        Yes            Open
              recommendation and, by             2010
              December 31, 2010, will update
              the PTM to document a
              comprehensive multi-step review
              process. The PTM will also
              include a process for
              documenting and reviewing
              related failed bank and
              subsidiary inter-related accounts.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to
the recommendations, the recommendations can be closed.




                                                     II-3
